<html>
<title> - VIOLATIONS OF THE HATCH ACT UNDER THE TRUMP ADMINISTRATION, PART II: KELLYANNE CONWAY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                      VIOLATIONS OF THE HATCH ACT
                    UNDER THE TRUMP ADMINISTRATION,
                       PART II: KELLYANNE CONWAY

=======================================================================


                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                             JULY 15, 2019
                               __________

                           Serial No. 116-47
                               __________

      Printed for the use of the Committee on Oversight and Reform
      

                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                  
                  
                  Available on: http://www.govinfo.gov
                     http://www.oversight.house.gov
                        http://www.docs.house.gov
                        
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
37-316 PDF                 WASHINGTON : 2019   

                        

                   COMMITTEE ON OVERSIGHT AND REFORM

                 ELIJAH E. CUMMINGS, Maryland, Chairman

Carolyn B. Maloney, New York         Jim Jordan, Ohio, Ranking Minority 
Eleanor Holmes Norton, District of       Member
    Columbia                         Paul A. Gosar, Arizona
Wm. Lacy Clay, Missouri              Virginia Foxx, North Carolina
Stephen F. Lynch, Massachusetts      Thomas Massie, Kentucky
Jim Cooper, Tennessee                Mark Meadows, North Carolina
Gerald E. Connolly, Virginia         Jody B. Hice, Georgia
Raja Krishnamoorthi, Illinois        Glenn Grothman, Wisconsin
Jamie Raskin, Maryland               James Comer, Kentucky
Harley Rouda, California             Michael Cloud, Texas
Katie Hill, California               Bob Gibbs, Ohio
Debbie Wasserman Schultz, Florida    Ralph Norman, South Carolina
John P. Sarbanes, Maryland           Clay Higgins, Louisiana
Peter Welch, Vermont                 Chip Roy, Texas
Jackie Speier, California            Carol D. Miller, West Virginia
Robin L. Kelly, Illinois             Mark E. Green, Tennessee
Mark DeSaulnier, California          Kelly Armstrong, North Dakota
Brenda L. Lawrence, Michigan         W. Gregory Steube, Florida
Stacey E. Plaskett, Virgin Islands   Fred Keller, Pennsylvania
Ro Khanna, California
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
                      Krista Boyd, General Counsel
            Elisa LaNier, Director of Operations/Chief Clerk
               Christopher Hixon, Minority Chief of Staff

                      Contact Number: 202-225-5051
                         
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on July 15, 2019....................................     1

                              ----------                              

No additional documents were submitted dring this hearing. 


 
                      VIOLATIONS OF THE HATCH ACT
                    UNDER THE TRUMP ADMINISTRATION,
                       PART II: KELLYANNE CONWAY

                              ----------                              


                         Friday, July 15, 2019

                   House of Representatives
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The committee met, pursuant to notice, at 4:10 p.m., in 
room 2154, Rayburn House Office Building, Hon. Elijah Cummings 
(chairman of the committee) presiding.
    Present: Representatives Cummings, Maloney, Norton, 
Connolly, Krishnamoorthi, Raskin, Rouda, Hill, Welch, Kelly, 
DeSaulnier, Lawrence, Gomez, Ocasio-Cortez, Pressley, Tlaib, 
Jordan, Gosar, Massie, Meadows, Hice, Grothman, Comer, Norman, 
Roy, Miller, Green, Armstrong, Steube, and Keller.
    Chairman Cummings. The committee will come to order.
    And, without objection, the chair is authorized to declare 
a recess of the committee at any time.
    We are convening for part two of our full committee hearing 
on violations of the Hatch Act under the Trump administration 
to hear testimony from Ms. Kellyanne Conway.
    I now recognize myself for five minutes to give an opening 
statement.
    Today, the committee was scheduled to hear testimony from 
Ms. Kellyanne Conway, Counselor to the President, about her 
repeated violations of Federal laws.
    This is the second time in three weeks our committee has 
attempted to obtain her testimony. We invited her to appear 
voluntarily at a hearing on June 26, but she refused. The 
committee then voted to authorize a subpoena to compel her to 
testify here today. In defiance of that subpoena, Ms. Conway is 
again refusing to appear.
    Since Ms. Conway joined the White House in January 2017, 
she has repeatedly and flagrantly abused her position of trust.
    In March 2017, the Office of Government Ethics recommended 
that the White House discipline Ms. Conway for using her 
official position to promote Ivanka Trump's private business 
during an interview on ``Fox & Friends.'' Rather than holding 
Ms. Conway accountable, the White House minimized the 
seriousness of Ms. Conway's violation by claiming that it was 
made in a, quote, ``light, offhand manner,'' end of quote.
    In October 2017, the committee discovered that Ms. Conway 
wasted thousands of taxpayer dollars by traveling around the 
country on private jets with former Secretary of Health and 
Human Services Tom Price. Secretary Price paid the taxpayers 
back, and then he resigned. Ms. Conway refused to reimburse 
taxpayers and faced no disciplinary action at all from 
President Trump.
    Most recently, on June the 13th, 2019, the independent 
Office of Special Counsel, which is led by Henry Kerner, who 
was appointed by President Trump, issued a report recommending 
that President Trump fire Ms. Conway for, quote, ``persistent, 
notorious, and deliberate'' violations of the Hatch Act.
    The Hatch Act prohibits Federal employees from using their 
official positions for partisan political purposes. The law 
ensures that the Federal Government is administered in a 
nonpartisan manner and that Federal employees are protected 
from political coercion in the workplace.
    Mr. Kerner testified before our committee for more than 
three hours about Ms. Conway's violations of Federal law. He 
called them, quote, ``clear, repeated, and knowing violations 
of the Hatch Act,'' end of quote.
    He also warned that since President Trump is not taking any 
disciplinary action against Ms. Conway, he sends a, quote, 
``false message'' to other Federal employees that they need not 
abide by the Hatch Act or that senior officials are above the 
law.
    Now, today, Ms. Conway is violating a duly authorized 
subpoena issued by this committee. Ms. Conway is required to be 
here today to address her multiple violations of Federal law, 
many of which occurred on national TV.
    Why is she not here? Just 25 minutes ago, the White House 
sent a letter to the committee claiming that Ms. Conway is, 
quote, ``absolutely immune,'' end of quote, from having to 
testify before Congress simply because she works in the White 
House. That is a completely baseless claim.
    Our committee has heard testimony from many White House 
officials under both Republican and Democratic administrations. 
Examples include multiple White House Counsels, the Deputy 
Counsel to the President, an Associate Counsel to the 
President, a Deputy Assistant to the President, and the 
Director of the White House Office of Security. This is a 
clear-cut case.
    We are not requiring her to testify about advice she gave 
the President or about the White House's policy decisions. Let 
me repeat that, members. We are not requiring her to testify 
about advice she gave the President or about the White House's 
policy decisions.
    We are requiring her to testify before Congress about her 
multiple violations of Federal law, her waste of taxpayer 
funds, and her actions that compromise public confidence in the 
integrity of the Federal Government. This illegal activity and 
the ongoing effort to cover it up must not be allowed to stand.
    This is bigger than just the Hatch Act or any other law. 
This is about holding our government to the highest standard 
and not allowing individuals appointed by the President to be 
given special treatment when they flagrantly violate the law. I 
must add that we have over 2 million Federal employees who obey 
the Hatch Act every hour of their working day.
    We hope Ms. Conway will reconsider, but if she does not, we 
will hold a business meeting on July 25 to hold her in 
contempt. I urge Ms. Conway to help us avoid this situation by 
agreeing to testify before the committee.
    I might note that this hearing was noticed for 4 o'clock 
today, and it is now 4:27--4:18. It is now 4:18.
    Our goal is to hear from Ms. Conway. If she does not change 
course, we have no choice but to hold her accountable.
    With that, I yield to the distinguished ranking member, Mr. 
Jordan.
    Mr. Jordan. Mr. Chairman, today's hearing is politics, pure 
politics, orchestrated by a left-wing advocacy organization to 
silence one of the President's top advisors. CREW was founded 
by the Democrats' impeachment manager, Norm Eisen--that is 
right, the guy Jerry Nadler hired to run impeachment for the 
Judiciary Committee.
    They targeted Ms. Conway not because it was looking to 
clean up the government; they targeted Ms. Conway because she 
is effective. She is effective at holding the press 
accountable, cutting through the noise to explain President 
Trump's successes and his vision for our country.
    CREW knows that attacking a high-profile member of the 
President's team will get them headlines, help them raise 
money, cause the administration to spend time and resources 
responding.
    CREW filed the complaint with the Office of Special 
Counsel, and the bureaucrats at OSC were more than happy to run 
with it.
    The report produced about Kellyanne Conway outrageous and 
unprecedented. During the Obama Administration, OSC never made 
a recommendation to remove a White House employee from Federal 
service despite numerous--numerous Hatch Act violations.
    And when OSC did flag this unprecedented recommendation for 
the White House, OSC only gave the White House 16 hours--that 
is right--just overnight, to respond.
    The items OSC flagged as problematic are ridiculous. Ms. 
Conway said that Vice President Biden and Senator Bernie 
Sanders are two old, white career politicians. She said Senator 
Warren was lying about her ethnicity and appropriating somebody 
else's heritage. She suggested that Congressman O'Rourke does 
not think that women running are good enough to be President. 
And she said that Senator Bernie Sanders has ideas that are, 
quote, ``terrible for America.''
    Frankly, I think a lot of Americans would agree with Ms. 
Conway's statements. But whether you agree or disagree with 
those statements, it does not change the fact that they are Ms. 
Conway's honest opinions and she has every right to share her 
opinions.
    Democrats on this committee are more than happy to use the 
OSC report to attack Ms. Conway and, of course, the President. 
And this is just yet another example of the committee, as I 
said, being used for politics.
    We had Special Counsel Henry Kerner testify for several 
hours, detailing every fact about his report. This hearing 
today is solely for the purpose of creating theater, political 
theater, and advancing your partisan narrative about the 
administration.
    Mr. Chairman, you have said the administration is engaged 
in a cover-up from the top on all the investigations. What you 
failed to say, however, is this administration has produced 
over 110,000 pages of documents to this committee and made 
available all kinds of witnesses for transcribed interviews.
    With the sort of rhetoric you have been using about the 
administration, do you really think Ms. Conway thought she 
would get a fair hearing here today? I don't think anyone is 
surprised that Ms. Conway decided to spend her afternoon doing 
her job on behalf of the American taxpayers rather than 
subjecting herself to a classic Washington political theater 
committee hearing.
    And to what end? This effort does nothing to improve the 
lives of everyday Americans, does nothing to fix the crisis at 
the border, rein in the opioid epidemic, or bring down drug 
prices.
    This committee is always strongest when we work together 
across party lines, but for the past six months the chairman 
and his Democrat colleagues have chosen instead to take 
political shots at the President.
    Let's be clear: Ms. Conway's job is to advise the President 
and serve as a media surrogate to keep the American people 
apprised of the administration's views and action. This role is 
necessary politically and involves her answering questions 
about the state of politics in America. To suggest that in 
carrying out her duties she ran afoul of the law is an attack 
on her First Amendment liberties.
    What we learned from Special Counsel Kerner two weeks ago 
is that he was upset that Ms. Conway did not stop everything 
she was doing, rearrange the way she does her job, and be 
subject to a bureaucratic gag order pursuant to his office's 
overly broad interpretation of the Hatch Act.
    If we allowed the Hatch Act to be interpreted the way this 
OSC wants, it would have a chilling effect on executive branch 
employees that would silence both Republicans and Democrats for 
decades to come.
    I know that my colleagues and I would be amenable to a 
discussion about legislation that would clarify the bounds of 
the Hatch Act. That actually was brought up in our hearing when 
we had Mr. Kerner here. But we are not amenable to this overly 
broad use to attempt to silence a senior Presidential advisor 
like we are witnessing this afternoon.
    I yield back.
    Chairman Cummings. I am disappointed that Ms. Conway chose 
to defy the committee's duly authorized subpoena for her 
appearance.
    And I want to thank my colleagues for coming here today.
    I hope the White House will reconsider its position and 
cooperate with the committee.
    The hearing is adjourned.
    [Whereupon, at 4:22 p.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
